Citadel Cash Rewards Mastercard® Agreements & Disclosures
M-131840
Interest Rates and Interest Charges
How to Avoid Paying Interest

Your due date is 25 days after the close of each billing cycle. We will not charge you any interest on
purchases if you pay your entire balance by the due date each month. Interest is charged on cash
advances and balance transfers from the date the advance is made.

For Credit Card Tips From The Consumer
Financial Protection Bureau

To learn more about the factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

Fees
Transaction Fees
Cash Advance Fee
Foreign Transaction Fee

Up to 5% of amount advanced ($10.00 minimum)
1.1% of transaction amount in U.S. dollars.

Penalty Fees
Late Fee
Returned Check Fee

Up to $35.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called the “Average Daily Balance (including new purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
The information about the costs of the card described is accurate as of 8/20. This information may have changed after that date. To find out what may have changed, call us at (800) 666-0191.
Your APR may change on a monthly basis. The APR is established using The Wall Street Journal Prime Rate 10 days prior to the end of the month and changes on the first of the following month.
We calculate your rate by adding a margin of 7.99% - 14.99% to the Prime Rate. The result is your APR.
There is no limit on the amount by which your APR will increase at one time, but it will never be greater than 17.99% APR. Rate changes may result in an increase in the minimum payment or an
increase in time it will take to pay off the balance on card. Please refer to your statement for your APR.
To view the full Mastercard Guide to Benefits, visit: CitadelBanking.com/CashRewardsGTB

Citadel Cash Rewards Mastercard® Line of Credit Agreement
Agreement between Citadel and the borrower(s):

1. Upon using this card, I agree to be bound by the terms and conditions of Citadel’s credit
card agreement. I signifies “we”.
2. I hereby apply for a line of credit that I can use from time to time and which may be replenished by payment on amounts previously drawn.
3. This Agreement establishes my request for the issuance of a Mastercard upon approval
by Citadel. (a) The credit limit approved shall be determined by Citadel, and this credit limit
will be drawn upon as I utilize an issued Mastercard Credit Card. (b) The line of credit will be
repaid in accordance with terms and conditions issued by Mastercard International, Inc., and in
accordance with policies established by Citadel’s Board of Directors.
4. A Finance Charge will be imposed on Mastercard Cash Advances that you obtain through
the use of your Mastercard as of the date of each such Cash Advance and will continue to
accrue until date of payment in full. A Finance Charge will be imposed on the unpaid balance
for Credit Purchases from the statement closing date and on Credit Purchases made during
the current billing cycle from the date of posting of each such Credit Purchase to your account
and will continue to accrue until the date the account balance is paid in full only if the New
Balance indicated on your statement for the prior monthly period is not paid in full within 25
days after the statement closing date. If the New Balance indicated on your statement for the
prior monthly period is paid in full within 25 days after the statement closing date, no Finance
Charge will be imposed on Credit Purchases made during the current billing cycle.

5. The Periodic Rate used to compute The Finance Charge is the APR divided by 365 multiplied
by the number of days in the month. Please contact Citadel or refer to your credit card statement to find out the corresponding APR.
6. The Finance Charge for a billing cycle is computed by applying the daily Periodic Rate to the
Average Daily Balance, which is determined by dividing the sum of the daily balances during
the billing cycle by the number of days in the cycle. Each daily balance is determined by adding
to the Previous Balance (the outstanding balance in the account at beginning of the billing
cycle) all new Mastercard Cash Advances as made and if the Previous Balance was not paid in
full within the first 25 days of the billing cycle, all new Credit Purchases as posted through that
date, but excluding any unpaid Finance Charges.
7. In event of suit to collect unpaid balances, all costs, including attorneys’ fees of 33% of
the balance due, or such greater amounts as may be reasonable and just and also those costs,
expenses and attorneys’ fees incurred in appellate proceedings, shall be imposed.
8. Issuer has the right to apply the proceeds of any collateral now or hereafter pledged to
Issuer to secure payment of other indebtedness with Issuer to the payment of your unpaid
balance in event of non-payment.
9. Payments made are applied in the following order: late charges, service fees, interest on
retail purchases, interest on cash advances, cash advance principal, and retail purchase principal
(remaining payment).

10. I agree not to use this credit card for any illegal activity. I understand that by doing so I may
lose certain rights.
11. Billing Error Rights Notice Your Billing Rights: Keep this Document for Future Use. This
notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement. If you think there is an error on
your statement, write to us at: Citadel 520 Eagleview Boulevard, Exton, PA 19341. In your letter,
give us the following information: (a) Account information: Your name and account number.
(b) Dollar amount: The dollar amount of the suspected error. (c) Description of problem: If you
think there is an error on your bill, describe what you believe is wrong and why you believe it is
a mistake. You must contact us: (a) Within 60 days after the error appeared on your statement.
(b) At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong. You must notify us of any potential errors in
writing. You may call us, but if you do we are not required to investigate any potential errors
and you may have to pay the amount in question. What Will Happen After We Receive Your
Letter. When we receive your letter, we must do two things: (a) Within 30 days of receiving
your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error. (b)Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct. While we investigate whether
or not there has been an error: (a) We cannot try to collect the amount in question, or report
you as delinquent on that amount. (b) The charge in question may remain on your statement,
and we may continue to charge you interest on that amount. (c) While you do not have to
pay the amount in question, you are responsible for the remainder of your balance. (d) We
can apply any unpaid amount against your credit limit. After we finish our investigation, one
of two things will happen: (a) If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount. (b) If we do not believe there was
a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you owe. If you receive
our explanation but still believe your bill is wrong, you must write to us within 10 days telling
us that you still refuse to pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations know when the matter
has been settled between us. If we do not follow all of the rules above, you do not have to pay
the first $50.00 of the amount you question even if your bill is correct. Your Rights If You Are
Dissatisfied With Your Credit Card Purchases. If you are dissatisfied with the goods or
services that you have purchased with your credit card, and you have tried in good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount
due on the purchase. To use this right, all of the following must be true: (a) The purchase must
have been made in your home state or within 100 miles of your current mailing address, and
the purchase price must have been more than $50.00. (Note: Neither of these are necessary
if your purchase was based on an advertisement we mailed to you, or if we own the company
that sold you the goods or services.) (b) You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a check that accesses your credit card
account do not qualify. (c) You must not yet have fully paid for the purchase. If all of the criteria
above are met and you are still dissatisfied with the purchase, contact us in writing at: Citadel
520 Eagleview Boulevard, Exton, PA 19341. While we investigate, the same rules apply to the
disputed amount as discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we may report
you as delinquent.
12. I understand and agree that Citadel has the authority to impress and enforce a lien on all
present and future shares in my name to the extent of that unpaid balance in event of
non-payment.
13. The minimum monthly periodic payment required is the total New Balance as shown on
your monthly billing statement if the amount is under $25.00. If the New Balance exceeds
$25.00, the minimum periodic payment is 2.25% of that portion of the New Balance which
does not exceed your credit limit, plus the entire portion of the New Balance in excess of your
credit limit, plus any amount past due, or $25.00, whichever is greater.
14. If I lose my Mastercard, I will report the lost card to Citadel as soon as possible.
Replacement cards will be given to me at a cost of $10.00.

15. Citadel may charge a late fee of up to $35.00 if my monthly payment is more than 5 (five)
days past due. At no time will your late fee exceed your outstanding balance. I understand that
Citadel reserves the right to change the fee at any time with proper written notification.
16. A Cash Advance Fee of up to 5% of the advance amount will be assessed per Mastercard
Cash Advance transaction. The minimum fee is $10.00. I understand that the Credit Union
reserves the right to change the fee at any time.
17. For transactions initiated in foreign currencies, the exchange rate between the transaction
currency and the billing currency (U.S. dollars) will be: (a) a rate selected by Mastercard from
the range of rates available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate Mastercard itself receives; or (b) the governmentmandated rate in effect for the applicable central processing date. In each instance you will
be charged a fee of 0.90% calculated on the final settlement amount for transactions that are
initiated in foreign countries, and if your transaction is also initiated in a foreign currency you
will be charged an additional fee of 0.20% calculated on the final converted settlement amount.
18. I promise to pay any and all charges incurred by me or by any person whom I authorize
to use the Mastercard Credit Card issued to me.
19. As a holder of a Mastercard Credit Card, I understand that I can repay any outstanding
balance prior to maturity in whole or in part at my option without penalty.
20. I recognize and agree that I will accept any other conditions established by Citadel’s Board
of Directors that are necessary to protect the best interest of Citadel and to comply with
applicable Federal and State laws and regulations, except that Citadel may not assess any other
charges to which I have not expressly agreed.
21. I acknowledge and agree that Citadel’s Loan Review Committee may terminate this
Agreement under the following conditions: (a) Upon adverse re-evaluation of my credit
worthiness. (b) Upon my failure to satisfy the terms of this Agreement and the terms and
conditions established by Citadel’s Board of Directors and by Mastercard International, Inc.
(c) At my option or at Citadel’s option if it has good cause.
22. If my line of credit is to be terminated by Citadel, I shall receive written notice of such
termination; however, I understand and acknowledge that such termination shall not affect
my obligation to pay any outstanding balance.
23. I understand that Citadel may review my loan file at least once every 12 months. I hereby
give my permission to and authorize Citadel to investigate and reassess my credit worthiness
with the understanding that this may affect my loan limit depending on the results of the
credit inquiry.
24. I fully understand, acknowledge and agree that if my loans become delinquent or past due
my Mastercard Credit Card shall be revoked, unless the Loan Review Committee or the Loan
Officer determines that extenuating circumstances have contributed to the delinquency; under
such circumstances, the Loan Review Committee, at its option, may approve my continued use
of the Mastercard Credit Card.
25. Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to
a member of the Armed Forces and his or her dependent may not exceed an annual percentage
rate of 36 percent. This rate must include, as applicable to the credit transaction or account: The
costs associated with credit insurance premiums; fees for ancillary products sold in connection
with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain
participation fees for a credit card account). If you want to hear this disclosure verbally, please
call 855-640-3707. Not applicable for business credit cards.
26. Any controversy or claim arising out of or relating to these Agreements And Disclosures,
or the breach thereof, shall be settled by arbitration administered by the American Arbitration
Association in accordance with its Arbitration Rules and judgment on the award rendered by
the arbitrator(s) may be entered in any court having jurisdiction thereof. All parties hereby
waive and give up all rights to a jury trial or class action relief.

2707 8/2020

